CERTIFICATE OF SERVICE
On November 9, 2020, forty (40) copies of
Petition for Rehearing a Writ of Certiorari was
served to the Court by depositing same in a
United States Postal Service Facility with First
Class postage paid and addressed to the Clerk:
The Clerk,
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
and three (3) copies of the same to Continental’s
Counsel of Record by depositing same in a
United States Postal Service Facility with firstclass postage paid and addressed to:
Kevin B. Hirsch
Cohen, Lerner & Rabinovitz,
26862 Woodward Avenue, Suite 200
Royal Oak, MI 48067
and electronically by email to: Kevin B. Hirsch
(kevin.hirsch@cohenlerner.com)
I declare under penalty of perjury that the
foregoing is true and correct

RECEIVED
NOV 16 2020

/

'J

Respectfully Submitted,
Dated: November 9, 2020
/s/Ukpai I Ukpai
Pro se
3193 Rutledge Park Court,
West Bloomfield, MI 48322
248-470-2691

i

